                                Closeout for M99 110051

       On November 4, 1999, a Program Director1 told u s he had received a letter
    from the complainant2 alleging misconduct in science. We contacted the
    complainant who alleged that, in the subject's paper in an electronic journal's
    the subject4 failed to properk cite data such that it appeared he was taking
    credit for the complainant's data. The complainant also alleged that the
    subject failed to obtain the proper permits for scientific specimen collection
    from three state parks and one national park before collecting the specimens.
       With respect to the data issue, the subject told u s the journal article had
    been primarily prepared by his post-doctoral researchers who had mistakenly
    attributed the data in question to the subject. The post-doctoral researcher
    admitted that he had assumed that the data in question was the subject's and
    had not verified it's source with the subject before including it in the
    manuscript. The post-doctoral researcher and the subject said that because
    the paper was online, it could be edited after posting, and they would change it
    based on the complaints he received from us.
       With regard to permits, the subject provided a permit for collection from
    national forest land and said he obtained oral permission a t the gates of the
    state parks from which he collected. The administrators from the three state
I   parks and the national park from which the subject collected samples said that
    oral permission was insufficient, and the subject should have obtained a
    written permit.
        We asked the subject and his university's Authorized Organizational
    Representatives if the subject's proposal, with its lack of permits for collection,
    was prepared and given the appropriate oversight according to university
    policy. We also asked them to contact the parks to seek appropriate resolution
    of this matter.
       Although NSF places overall responsibility with the Awardee for making
    sound scientific and administrative decisions (and had not articulated a
    specific requirement for specimen collection), both the Authorized
    Organizational Representative and the subject said that%e university did not
    have a specific policy regarding collection of specimens for scientific research.
    In this case, however, the proposal did not specify collection sites so that the
    Authorized ,Organizational Representative did not address the issue of the
    specific, required permits. The Authorized Organizational Representative said

       1 (footnote redacted).
       2 (footnote redacted).
       3 (footnote redacted).
       4 (footnote redacted).
       5 (footnote redacted).
       6 (footnote redacted).



                                         Page 1 of 2
                         . -a
                                                              .,-   .,.
                                                          .
                                                          .
                                                                          ,:
                                Closeout 99 110051



that after discussion a t the university on the topic, there are plans to revise the
university's research policy manual to include specimen collection. Regarding
the permits, the subject contacted the various parks explaining what had
happened and asked what he should do in response. Because his specimens
were not considered wildlife or an endangered species, the park administrators
only requested to know how many specimens he collected and the location
from which he collected.
   In summary, we verified the data citation in electronic journal paper had
been corrected, and we made the subject aware that a written permit is
generally required for collection at parks. He told us he will ensure the proper
perrnits are obtained in the future. his inquiry is closed and no further action
will be taken on this case.

cc: Investigations, IG




                                     Page 2 of 2
